No. _____________________________
_______________

 __________________
IN THE

SUPREME COURT OF THE UNITED STATES
OCTOBER 2020 TERM
________________  __________________
EDGAR GOMEZ,
PETITIONER
v.
RAYMOND MADDEN, Warden
RESPONDENT
__________________  ___________________
APPENDICES TO PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF THE UNITED STATES
__________________  __________________

Jan B. Norman
71 Via Paraiso
Monterey, CA 93940
Telephone: 831-920-1410
email: janbnorman@gmail.com
Attorney for Petitioner
EDGAR GOMEZ

INDEX TO APPENDICES
APPENDIX A
Order affirming denial of habeas petition - United States Court of Appeals for the
Ninth Circuit - Gomez v. Madden, Case No. 18-55722, unpublished memorandum filed June 4, 2020.
APPENDIX B
Orders Accepting Findings and Recommendations of United States Magistrate;
Judgment; and Order Denying Certificate of Appealability - United States District
Court for the Central District of California - Gomez v. Madden, Case No. 2:17-cv04678-SJO-AFM, filed May 3, 2018.
APPENDIX C
Report and Recommendation - United States District Court for the Central District of
California - Gomez v. Madden, Case No. 2:17-cv-04678-SJO-AFM, filed February 7,
2018.
APPENDIX D
Denial of Petition for Review - California Supreme Court - People v. Gomez, Case No.
S231983, filed February 24, 2015;
APPENDIX E
Unpublished Opinion reversing convictions for kidnapping and for carjacking
reversed, judgment otherwise affirmed - California Court of Appeal, Second District,
Division 7 - People v. Gomez, Case No. B257511, filed December 14, 2015)May 3,
2018)(docket nos. 22-24).

1

Case: 18-55722, 06/04/2020, ID: 11710719, DktEntry: 36-1, Page 1 of 3

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUN 4 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
EDGAR GOMEZ,

No.

Petitioner-Appellant,

U.S. COURT OF APPEALS

18-55722

D.C. No. 2:17-cv-04678-SJO-AFM

v.

MEMORANDUM*

RAYMOND MADDEN, Warden,
Respondent-Appellee.
Appeal from the United States District Court
For the Central District of California
S. James Otero, District Judge, Presiding
Submitted June 2, 2020**
Seattle, Washington
Before: CALLAHAN and NGUYEN, Circuit Judges, and R. COLLINS,*** District
Judge.
Plaintiff-Appellant Edgar Gomez appeals the district court’s order denying
his 28 U.S.C. § 2254 habeas petition. We have jurisdiction under 28 U.S.C.
§ 2253. Reviewing the denial of a habeas petition de novo, Hernandez v. Holland,

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***
The Honorable Raner C. Collins, United States District Judge for the
District of Arizona, sitting by designation.

000001

Case: 18-55722, 06/04/2020, ID: 11710719, DktEntry: 36-1, Page 2 of 3

750 F.3d 843, 852 (9th Cir. 2014), we affirm.
This Circuit has concluded that the holding in Faretta v. California, 422
U.S. 806 (1975), requires that a request to proceed pro per be timely, and that a
timely request is one that is made “weeks before” trial. United States v. Erskine,
355 F.3d 1161, 1167 (9th Cir. 2004); Moore v. Calderon, 108 F.3d 261, 265 (9th
Cir. 1997). Appellant’s request was made moments before trial, not weeks before.
Accordingly, Appellant has not shown that the state court’s decision was “contrary
to, or involved an unreasonable application of,” Faretta. 28 U.S.C. § 2254(d)(1);
see Marshall v. Taylor, 395 F.3d 1058, 1061 (9th Cir. 2005) (“Because the
Supreme Court has not clearly established when a Faretta request is untimely,
other courts are free to do so as long as their standards comport with the Supreme
Court’s holding that a request ‘weeks before trial’ is timely.”).
Furthermore, the trial court was not required to conduct further questioning
after finding the pro per request untimely because the Faretta requirements are
inclusive, meaning the failure of any factor may be reason for denial. See Erskine,
355 F.3d at 1167 (“A defendant’s decision to forgo counsel and instead to defend
himself . . . is valid if the request is timely, not for the purposes of delay,
unequivocal, and knowing and intelligent.” (emphasis added)). In addition, no
clearly established federal law exists creating this requirement. Therefore, the trial
court’s actions cannot be a basis for habeas relief. See Stenson v. Lambert, 504

2

000002

18-35033

Case: 18-55722, 06/04/2020, ID: 11710719, DktEntry: 36-1, Page 3 of 3

F.3d 873, 881 (9th Cir. 2007); Kane v. Espitia, 546 U.S. 9, 10 (2006).
AFFIRMED.

3

000003

18-35033

Case 2:17-cv-04678-SJO-AFM Document 22 Filed 05/03/18 Page 1 of 1 Page ID #:1591

1
2
3
4
5
6
7

UNITED STATES DISTRICT COURT

8

CENTRAL DISTRICT OF CALIFORNIA

9
10

Petitioner,

11
12
13
14

Case No. CV 17-04678 SJO (AFM)

EDGAR GOMEZ,

ORDER ACCEPTING FINDINGS
AND RECOMMENDATIONS OF
UNITED STATES MAGISTRATE
JUDGE

v.
RAYMOND MADDEN, Warden,
Respondent.

15
16

Pursuant to 28 U.S.C. § 636, the Court has reviewed the Petition, records on

17

file and the Report and Recommendation of United States Magistrate Judge.

18

Further, the Court has engaged in a de novo review of those portions of the Report

19

to which Petitioner has objected. The Court accepts the findings and

20

recommendations of the Magistrate Judge.

21

IT THEREFORE IS ORDERED that (1) the Report and Recommendation of

22

the Magistrate Judge is accepted and adopted; (2) petitioner’s request for an

23

evidentiary hearing is denied; and (3) Judgment be entered denying the Petition and

24

dismissing the action with prejudice.

51 , ,ct-tn_ft. ext,

25
26

DATED: May 3, 2018

____________________________________
S. JAMES OTERO
UNITED STATES DISTRICT JUDGE

27
28

000004

Case 2:17-cv-04678-SJO-AFM Document 23 Filed 05/03/18 Page 1 of 1 Page ID #:1592

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11
12
13
14
15

Case No. CV 17-04678 SJO (AFM)

EDGAR GOMEZ,
Petitioner,

JUDGMENT

v.
RAYMOND MADDEN, Warden,
Respondent.

16
17
18
19
20

Pursuant to the Order Accepting Findings and Recommendations of the
United States Magistrate Judge,
IT IS ORDERED AND ADJUDGED that the Petition is denied and the
action is dismissed with prejudice.

21
22

5

DATED: May 3, 2018

23

da'st

Qtts-

___________________________________
S. JAMES OTERO
UNITED STATES DISTRICT JUDGE

24
25
26
27
28

000005

Case 2:17-cv-04678-SJO-AFM Document 24 Filed 05/03/18 Page 1 of 2 Page ID #:1593

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11
12
13
14

Case No. CV 17-04678 SJO (AFM)

EDGAR GOMEZ,
Petitioner,

ORDER RE CERTIFICATE OF
APPEALABILITY

v.
RAYMOND MADDEN, Warden,

15

Respondent.

16
17
18
19

Rule 11 of the Rules Governing Section 2254 Cases in the United States
District Courts reads as follows:
(a)

Certificate of Appealability.

The district court must

20

issue or deny a certificate of appealability when it enters a final order

21

adverse to the applicant. Before entering the final order, the court may

22

direct the parties to submit arguments on whether a certificate should

23

issue. If the court issues a certificate, the court must state the specific

24

issue or issues that satisfy the showing required by 28 U.S.C.

25

§ 2253(c)(2). If the court denies a certificate, the parties may not

26

appeal the denial but may seek a certificate from the court of appeals

27

under Federal Rule of Appellate Procedure 22. A motion to reconsider

28

a denial does not extend the time to appeal.
000006

Case 2:17-cv-04678-SJO-AFM Document 24 Filed 05/03/18 Page 2 of 2 Page ID #:1594

1

(b)

Time to Appeal. Federal Rule of Appellate Procedure

2

4(a) governs the time to appeal an order entered under these rules. A

3

timely notice of appeal must be filed even if the district court issues a

4

certificate of appealability.

5

Under 28 U.S.C. § 2253(c)(2), a Certificate of Appealability may issue “only

6

if the applicant has made a substantial showing of the denial of a constitutional

7

right.” The Supreme Court has held that this standard means a showing that

8

“reasonable jurists could debate whether (or, for that matter, agree that) the petition

9

should have been resolved in a different manner or that the issues presented were

10

adequate to deserve encouragement to proceed further.” See Slack v. McDaniel,

11

529 U.S. 473, 483-84, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000) (internal quotation

12

marks omitted).

13

Here, after duly considering Petitioner’s contentions in support of the claims

14

alleged in the Petition, including in his objections to the Report and

15

Recommendation, the Court finds that Petitioner has not satisfied the requirements

16

for a Certificate of Appealability. Accordingly, the Certificate is DENIED.

17
18

DATED: May 3, 2018

51

19

, .afrn-ft. 6)--t,

____________________________________
S. JAMES OTERO
UNITED STATES DISTRICT JUDGE

20
21
22
23
24
25
26
27
28

2
000007

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 1 of 11 Page ID #:1574

1
2
3
4
5
6
7

UNITED STATES DISTRICT COURT

8

CENTRAL DISTRICT OF CALIFORNIA

9
10
11

Case No. CV 17-04678 SJO (AFM)

EDGAR GOMEZ,

12

Petitioner,

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE
JUDGE

13

v.
14
15

RAYMOND MADDEN, Warden,
Respondent.

16
17
18

This Report and Recommendation is submitted to the Honorable S. James

19

Otero, United States District Judge, pursuant to 28 U.S.C. § 636 and General Order

20

05-07 of the United States District Court for the Central District of California.

21

INTRODUCTION

22
23

On June 26, 2017, petitioner filed a Petition for Writ of Habeas Corpus by a

24

Person in State Custody under 28 U.S.C. § 2254. Petitioner was convicted at trial

25

of multiple crimes for participating in a gang-related assault on three men, and for

26

kidnapping a motorist during a carjacking.

27

habeas relief is that the trial court erred in denying his motion for self-

28

representation.
000008

Petitioner’s sole claim for federal

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 2 of 11 Page ID #:1575

1

As discussed below, it was not objectively unreasonable for the California

2

Court of Appeal to conclude that petitioner’s self-representation motion, brought on

3

the first day of trial, was properly denied as untimely.

4

recommends that the Petition be denied and that this action be dismissed with

5

prejudice.

The Court therefore

PROCEDURAL BACKGROUND

6
7

On November 19, 2013, a Los Angeles County Superior Court jury convicted

8

petitioner of three counts of assault with a deadly weapon and one count each of

9

kidnapping, carjacking, and kidnapping during the commission of a carjacking.

10

The jury acquitted petitioner of one count of robbery but found true allegations of

11

gang affiliation. He was sentenced to state prison for 16 years 4 months plus life

12

with the possibility of parole. (8 Reporter’s Transcript [“RT”] 1016-19, 1042;

13

1 Clerk’s Transcript [“CT”] 204-10; 2 CT 296-99.)

14

Petitioner appealed. (Respondent’s notice of lodging, Lodgment A.) In an

15

unpublished decision filed on December 14, 2015, the California Court of Appeal

16

reversed petitioner’s convictions for kidnapping and carjacking because they were

17

both lesser-included offenses of petitioner’s other crime of conviction, kidnapping

18

during the commission of a carjacking.

19

conviction was otherwise affirmed. (Id.) On February 24, 2016, the California

20

Supreme Court summarily denied a Petition for Review. (Lodgments E and F.) On

21

July 14, 2016, petitioner was resentenced to the same sentence of 16 years 4 months

22

plus life with the possibility of parole. (Lodgment I at 3-5.)

(Lodgment D.)1

Petitioner filed this Petition on June 26, 2017.

23

The judgment of

On December 1, 2017,

24

respondent filed an Answer. Petitioner did not file a Reply within the allotted time

25

or seek an extension of time to do so.

26
27
28

1

Respondent’s Lodgment D is misidentified in the electronic docket. It is located in ECF
No. 6-3.
2
000009

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 3 of 11 Page ID #:1576

PETITIONER’S CLAIM

1
2

In his sole claim for federal habeas relief, petitioner contends that his

3

convictions must be reversed because the trial court erroneously denied his request

4

to represent himself, in violation of the Sixth Amendment. (Petition at 6.)
STANDARD OF REVIEW

5
6
7

Under 28 U.S.C. § 2254(d), as amended by the Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”):

8

“An application for a writ of habeas corpus on behalf of a person in

9

custody pursuant to the judgment of a State court shall not be granted

10

with respect to any claim that was adjudicated on the merits in State

11

court proceedings unless the adjudication of the claim--(1) resulted in

12

a decision that was contrary to, or involved an unreasonable

13

application of, clearly established Federal law, as determined by the

14

Supreme Court of the United States; or (2) resulted in a decision that

15

was based on an unreasonable determination of the facts in light of the

16

evidence presented in the State court proceeding.”

17
18

Under the AEDPA, the “clearly established Federal law” that controls federal

19

habeas review of state court decisions consists of holdings (as opposed to dicta) of

20

Supreme Court decisions “as of the time of the relevant state-court decision.”

21

Williams v. Taylor, 529 U.S. 362, 412 (2000); see also Carey v. Musladin, 549 U.S.

22

70, 74 (2006).

23

Although a particular state court decision may be both “contrary to” and “an

24

unreasonable application of” controlling Supreme Court law, the two phrases have

25

distinct meanings. See Williams, 529 U.S. at 391, 413. A state court decision is

26

“contrary to” clearly established federal law if the decision either applies a rule that

27

contradicts the governing Supreme Court law, or reaches a result that differs from

28

the result the Supreme Court reached on “materially indistinguishable” facts. See
3
000010

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 4 of 11 Page ID #:1577

1

Early v. Packer, 537 U.S. 3, 8 (2002) (per curiam); Williams, 529 U.S. at 405-06.

2

When a state court decision adjudicating a claim is contrary to controlling Supreme

3

Court law, the reviewing federal habeas court is “unconstrained by § 2254(d)(1).”

4

See Williams, 529 U.S. at 406. However, the state court need not cite or even be

5

aware of the controlling Supreme Court cases, “so long as neither the reasoning nor

6

the result of the state-court decision contradicts them.” See Early, 537 U.S. at 8.

7

State court decisions that are not “contrary to” Supreme Court law may be set

8

aside on federal habeas review only “if they are not merely erroneous, but ‘an

9

unreasonable application’ of clearly established federal law, or based on ‘an

10

unreasonable determination of the facts.’” See Early, 537 U.S. at 11 (citing 28

11

U.S.C. § 2254(d)) (emphasis added). A state-court decision that correctly identified

12

the governing legal rule may be rejected if it unreasonably applied the rule to the

13

facts of a particular case. See Williams, 529 U.S. at 406-10, 413 (e.g., the rejected

14

decision may state the Strickland standard correctly but apply it unreasonably);

15

Woodford v. Visciotti, 537 U.S. 19, 24-27 (2002) (per curiam). However, to obtain

16

federal habeas relief for such an “unreasonable application,” a petitioner must show

17

that the state court’s application of Supreme Court law was “objectively

18

unreasonable.”

19

“unreasonable application” is different from an erroneous or incorrect one. See

20

Williams, 529 U.S. at 409-10; Visciotti, 537 U.S. at 25; Bell v. Cone, 535 U.S. 685,

21

699 (2002). Moreover, review of state court decisions under § 2254(d)(1) “is

22

limited to the record that was before the state court that adjudicated the claim on the

23

merits.” See Cullen v. Pinholster, 563 U.S. 170, 181 (2011).

24
25

Visciotti, 537 U.S. at 24-27; Williams, 529 U.S. at 413.

An

As the Supreme Court explained in Harrington v. Richter, 562 U.S. 86, 102
(2011):

26

“Under § 2254(d), a habeas court must determine what arguments or

27

theories supported or, as here [i.e., where there was no reasoned state-

28

court decision], could have supported, the state court’s decision; and
4
000011

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 5 of 11 Page ID #:1578

1

then it must ask whether it is possible fairminded jurists could disagree

2

that those arguments or theories are inconsistent with the holding in a

3

prior decision of this Court.”

4

Furthermore, “[a]s a condition for obtaining habeas corpus from a federal court, a

5

state prisoner must show that the state court’s ruling on the claim being presented in

6

federal court was so lacking in justification that there was an error well understood

7

and comprehended in existing law beyond any possibility for fairminded

8

disagreement.” Richter, 562 U.S. at 103.

9

Petitioner’s claim was denied by the California Court of Appeal in a reasoned

10

decision on direct appeal. Petitioner then presented the claim in his Petition for

11

Review, and the California Supreme Court summarily denied it.

12

California Court of Appeal’s decision on direct appeal constitutes the relevant state

13

court adjudication on the merits for purposes of the AEDPA standard of review.

14

See Berghuis v. Thompkins, 560 U.S. 370, 380 (2010) (where state supreme court

15

denied discretionary review of decision on direct appeal, the decision on direct

16

appeal is the relevant state-court decision for purposes of the AEDPA standard of

17

review).

Thus, the

DISCUSSION

18
19

A criminal defendant has a federal constitutional right to represent himself at

20

trial. Faretta v. California, 422 U.S. 806, 832 (1975). But the right to self-

21

representation is not absolute. Martinez v. Court of Appeal, 528 U.S. 152, 161

22

(2000). Not only must a defendant voluntarily and intelligently elect to conduct his

23

own defense, but the request for self-representation must be unequivocal and

24

timely. See Martinez, 528 U.S. at 161-62 (2000); Stenson v. Lambert, 504 F.3d

25

873, 882, 884 (9th Cir. 2007).

26

A.

27
28

Background.
On the first day of trial, when petitioner requested self-representation, the

trial court conducted a hearing (1 RT 1-2):
5
000012

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 6 of 11 Page ID #:1579

1

The Court: [The] matter has been transferred here for trial. Are

2

there any 402’s we need to deal with before we bring a jury panel

3

down?
[Counsel for petitioner]: Your Honor, before we do that, my

4

client has indicated to me that he wishes to proceed pro per.

5

The Court: Well, the matter is here for trial. Is he ready to

6

continue with the trial today?

7
8

[Petitioner]: No. No, Your Honor.

9

The Court: I mean, today is eight of ten, sent out for trial. I take
it it’s eight of ten.

10
11

[Counsel for petitioner]: Eight of ten, Your Honor.

12

The Court: Eight of ten, sent out for trial. This case has been

13

going on since April of 2012, so it’s a year and a half. Are you ready

14

to start picking a jury on your own?

15

[Petitioner]: Umm, I don’t think I'm fully prepared for that.

16

The Court: Well, then you waited too long to go pro per. The
request to go pro per is denied.

17
18

B.

Analysis.

19

1.

20

The California Court of Appeal concluded that the trial court had correctly

21

The California Court of Appeal’s untimeliness determination.

denied petitioner’s motion for self-representation as untimely (Lodgment D at 7-8):

22

The trial court correctly determined that [petitioner’s] motion to

23

represent himself was untimely because he made it on the day of trial,

24

just as the trial was about to begin and the prospective jurors were

25

about to enter the courtroom. As the California Supreme Court stated

26

in Windham, “a defendant should not be permitted to wait until the day

27

preceding trial before he moves to represent himself . . . without some

28

showing of reasonable cause for the lateness of the request.”
6
000013

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 7 of 11 Page ID #:1580

1

(Windham, supra, 19 Cal. 3d at p. 128, fn. 5; see People v. Valdez

2

(2004) 32 Cal. 4th 73, 102 [motion for self-representation made

3

“moments before jury selection was set to begin” was untimely];

4

People v. Frierson (1991) 53 Cal. 3d 730, 742 [motion for self-

5

representation made “on the eve of trial over 10 months after counsel

6

had been appointed” was untimely]; People v. Moore (1988) 47 Cal.

7

3d 63, 79 [“we specifically stated in Windham, that ‘a defendant

8

should not be permitted to wait until the day preceding trial before he

9

moves to represent himself and requests a continuance in order to

10

prepare for trial without some showing of reasonable cause for the

11

lateness of the request’”]; People v. Howze (2001) 85 Cal. App. 4th

12

1380, 1397 [motion for self-representation made “on the eve of trial”

13

or “within three calendar days of the commencement of trial” was

14

untimely]; People v. Rudd (1998) 63 Cal. App. 4th 620, 626 [although

15

there is no bright line rule, “[w]hen California Supreme Court

16

authority has been applied, motions for self-representation made on the

17

day preceding or on the trial date have been considered untimely”].)

18

Other circumstances supporting the trial court’s finding that

19

[petitioner’s] request was untimely included that [petitioner’s] attorney

20

was ready to proceed to trial, as evidenced by the fact that he did so a

21

few moments later, and the fact that [petitioner] had multiple pretrial

22

opportunities (at least 10 pretrial hearings at which he was present) to

23

assert his right of self-representation. (People v. Lynch, supra, 50 Cal.

24

4th at p. 726.)

25

The California Court of Appeal’s rejection of petitioner’s federal

26

constitutional claim on the ground of untimeliness was not objectively

27

unreasonable. “The only Supreme Court decision to discuss the timeliness of a

28

request to proceed pro se is the Faretta decision itself.” Moore v. Calderon, 108
7
000014

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 8 of 11 Page ID #:1581

1

F.3d 261, 265 (9th Cir. 1997), abrogated on other ground as recognized by Baker

2

v. City of Blaine, 221 F.3d 1108, 1110 n.2 (9th Cir. 2000). The Ninth Circuit has

3

construed Faretta as holding that a request for self-representation is timely if it is

4

made “weeks before trial” or “well before the date of trial.” Moore, 108 F.3d at

5

265. Thus, the only “clearly established federal law” in this context is that a

6

criminal defendant has an unqualified right of self-representation if he makes the

7

request weeks before trial or well before the date of trial. Id. Because of the

8

general nature of this standard, other courts are free to reject a Faretta request as

9

untimely “so as long as their standards comport with the Supreme Court’s holding

10

that a request ‘weeks before trial’ is timely.” Marshall v. Taylor, 395 F.3d 1058,

11

1061 (9th Cir. 2005).

12

Based on the circumstances here, the California Court of Appeal’s

13

untimeliness determination comported with Faretta.

Petitioner requested self-

14

representation on the first day of trial, not weeks before trial or well before the date

15

of trial. See Marshall, 395 F.3d at 1061 (Faretta request was untimely when it was

16

made on the morning the trial began, which “fell well inside the ‘weeks before trial’

17

standard for timeliness established by Faretta”); Stenson, 504 F.3d at 884 (holding

18

that a state court’s untimeliness determination was not objectively unreasonable

19

under the AEDPA because the Supreme Court has never held that Faretta’s “weeks

20

before trial” standard requires courts to grant requests made on the eve of trial); see

21

also Burton v. Davis, 816 F.3d 132, 1141 (9th Cir. 2016) (holding that a petitioner

22

was not entitled to relief under Faretta where his self-representation motion was

23

denied because it was made three days before the jury was impaneled).

24

Although the belated timing of petitioner’s self-representation request is

25

sufficient to conclude that the untimeliness determination was not objectively

26

unreasonable, the California Court of Appeal properly considered additional factors

27

consistent with Faretta’s general untimeliness standard. See Yarborough v.

28

Alvarado, 541 U.S. 652, 664 (2004) (“The more general the rule, the more leeway
8
000015

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 9 of 11 Page ID #:1582

1

courts have in reaching outcomes in case-by-case determinations.”); see also

2

Faultry v. Allison, 623 F. App’x 315, 316 (9th Cir. 2015) (noting that the absence

3

of precise contours in Faretta’s timeliness standard means that it does not “preclude

4

a consideration of factors other than the number of weeks before trial a self-

5

representation motion was made”). One of the factors here was that petitioner’s

6

counsel was ready to proceed to trial, while petitioner was not. See United States v.

7

Farias, 618 F.3d 1049, 1052 (9th Cir. 2010) (noting that a Faretta request that was

8

made on the eve of trial and that would require a continuance “would be strong

9

evidence of a purpose to delay”). Another factor was petitioner’s failure to assert

10

his right of self-representation earlier, during the multiple pretrial hearings at which

11

he was present. See Marshall, 395 F.3d at 1062 (holding that a state court could

12

find a Faretta request was untimely where the petitioner “could have made his

13

request much earlier than the day of trial”).

14

In sum, the California Court of Appeal’s conclusion that petitioner’s request

15

for self-representation was untimely did not result in a decision that was based on

16

an unreasonable determination of the facts in light of the evidence presented in the

17

state court proceeding, nor did it result in a decision that was contrary to, or

18

involved an unreasonable application of, clearly established federal law.

19
20

2.

The trial court’s failure to conduct an additional inquiry required
by state law.

21

Citing People v. Windham, 19 Cal. 3d 121, 128 (1977), petitioner complains

22

that the trial court failed to conduct an additional inquiry into his request. (See ECF

23

No. 18 at 6-7.).

24

Under California law, even if a defendant’s motion for self-representation is

25

untimely, the trial court still must conduct an additional inquiry into the reasons for

26

the motion, in order to determine whether to grant the motion as an exercise of

27

discretion notwithstanding the motion’s untimeliness. See Windham, 19 Cal. 3d at

28

128. After determining that petitioner’s self-representation motion was untimely,
9
000016

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 10 of 11 Page ID #:1583

1

the trial court ended the hearing without conducting the additional inquiry required

2

by Windham. (1 RT 2.) The California Court of Appeal concluded, however, that

3

the trial court’s error was harmless because it was not reasonably probable that

4

petitioner would have achieved a more favorable result had he represented himself,

5

and because the evidence of petitioner’s guilt was compelling and virtually

6

undisputed. (Lodgment D at 10-12.)

7

Federal habeas relief is unavailable for alleged errors in the application of

8

state law. See Estelle v. McGuire, 502 U.S. 62, 67-68 (1991). The inquiry required

9

by Windham into the reasons for an untimely self-representation request is a state

10

law requirement and does not implicate a federal constitutional right. See Burton,

11

816 F.3d at 1144 (describing Windham as a state law standard for evaluating a

12

Faretta request); Avila v. Roe, 298 F.3d 750, 753 n.3 (9th Cir. 2002) (noting the

13

distinction between California and federal standards for evaluating Faretta

14

requests); Alander v. McGrath, 216 F. App’x 644, 646 n.1 (9th Cir. 2007) (“The

15

Windham rule, however, is purely a creature of California state law and has no

16

bearing on the instant habeas petition.”); see also Hill v. Curtin, 792 F.3d 670, 678

17

(6th Cir. 2015) (“[T]he U.S. Supreme Court has never held that a court must inquire

18

into the basis of a defendant’s request before denying it as untimely.”). Thus,

19

petitioner’s allegation that the trial court’s failed to conduct the sort of inquiry

20

required by California law is not cognizable on federal habeas review.

21

C.

Petitioner’s request for an evidentiary hearing.

22

Petitioner requests an evidentiary hearing for his claim. (Petition at 1.)

23

As noted above, review of state court decisions under § 2254(d)(1) “is

24

limited to the record that was before the state court that adjudicated the claim on the

25

merits.” Pinholster, 563 U.S. at 180. By its express terms, § 2254(d)(2) restricts

26

federal habeas review to the record that was before the state court. See also

27

Pinholster, 563 U.S. at 185 n.7 (noting that an unreasonable determination of fact

28

under § 2254(d)(2) must be unreasonable “in light of the evidence presented in the
10
000017

Case 2:17-cv-04678-SJO-AFM Document 19 Filed 02/07/18 Page 11 of 11 Page ID #:1584

1

State court proceeding,” and stating that “[t]he additional clarity of § 2254(d)(2) on

2

this point . . . does not detract from our view that § 2254(d)(1) also is plainly

3

limited to the state-court record.”). Thus, federal courts may not consider new

4

evidence on claims adjudicated on the merits in state court unless the petitioner first

5

satisfies his burden under § 2254(d) and then satisfies his burden under

6

§ 2254(e)(2). See Pinholster, 563 U.S. at 181-85; Holland v. Jackson, 542 U.S.

7

649, 652-53 (2004). The Court’s findings above that petitioner is not entitled to

8

federal habeas relief under the AEDPA standard of review are dispositive of

9

petitioner’s request for an evidentiary hearing.

10
11

The Court therefore recommends that petitioner’s request for an evidentiary
hearing be denied.

12

RECOMMENDATION

13
14

IT THEREFORE IS RECOMMENDED that the District Court issue an

15

Order: (1) accepting this Report and Recommendation; (2) denying petitioner’s

16

request for an evidentiary hearing; and (3) directing that Judgment be entered

17

denying the Petition and dismissing this action with prejudice.

18
19

DATED: February 7, 2018

ge4tiffac—
letor—
ge4(

20
21

ALEXANDER F. MacKINNON
UNITED STATES MAGISTRATE JUDGE

22
23
24
25
26
27
28

11
000018

California Courts - Appellate Court Case Information

9/1/2020

Appellate Courts Case Information
Change court %,

Supreme Court
Court data last updated: 09/01/2020 02:17 PM

Disposition
PEOPLE v. GOMEZ
Division SF
Case Number S231983
Only the following dispositions are displayed below: Orders Denying Petitions, Orders Granting Rehearing and Opinions. Go
to the Docket Entries screen for information regarding orders granting review.
Case Citation:
none
Date

Description

02/24/2016

Petition for review denied

Click here to request automatic e-mail notifications about this case.

Careers I Contact Us I Accessibility I Public Access to Records I Terms of Use I
Privacy

© 2020 Judicial Council of California

000019

. //-

/J:

...S..... el

0

J.

:

n
nn.10 CI
nAnn..1

-

_t•nnAnrsn
nnnAnnnn

Filed 12/14/15 P. v. Gomez CA2/7

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SEVEN
THE PEOPLE,

B257511

Plaintiff and Respondent,

(Los Angeles County
Super. Ct. No. BA398363)

v.
EDGAR GOMEZ,
Defendant and Appellant.

APPEAL from a judgment of the Superior Court of Los Angeles County,
Rand S. Rubin, Judge. Affirmed in part and reversed in part.

Siri Shetty, under appointment by the Court of Appeal, for Defendant and
Appellant.

Kamala D. Harris, Attorney General, Gerald A. Engler, Chief Assistant
Attorney General, Lance E. Winters, Senior Assistant Attorney General, Steven D.
Matthews and David E. Madeo, Deputy Attorneys General, for Plaintiff and Respondent.

000020

INTRODUCTION

A jury convicted defendant Edgar Gomez of three counts of assault with a deadly
weapon, and one count each of kidnapping, carjacking, and kidnapping during the
commission of a carjacking. The jury also found true the criminal street gang
enhancement allegations related to the assaults. Gomez argues that all of the convictions
should be reversed because the trial court erroneously denied his motion on the first day
of trial to represent himself, and that his kidnapping and carjacking convictions should be
reversed because they are lesser included offenses of kidnapping during the commission
of a carjacking. We conclude that any error in the denial of Gomez’s motion for selfrepresentation was harmless, but that the convictions for kidnapping and carjacking
should be reversed.

FACTUAL AND PROCEDURAL BACKGROUND

A.

The Assaults

On April 28, 2012, at approximately 3:45 a.m., Rico Hayes, his boyfriend Raymel
Turner, and Turner’s friend Jerry Garnett were walking on Pico Boulevard from a roller
skating rink to a bus stop. All three men were African-American. At some point Garnett
stepped away from Hayes and Turner, and went around the corner to make a private
phone call. Suddenly, Hayes and Turner saw Garnett running back around the corner,
followed by a Latino man, Gomez, who was chasing him. Garnett was calling Turner’s
name and screaming for help. Hayes and Turner ran from the bus stop to come to
Garnett’s aid.
Garnett ran into a wall or gate and collided with Gomez, who put his hands on
Garnett as if he was frisking him. Gomez, who initially was outnumbered three to one,
kicked Turner in the knee, as two more Latino men came running around the corner to
join Gomez. Gomez said he was a member of the 18th Street criminal street gang and
assumed a fighting stance. Using derogatory terms for members of Blood and Crip
2
000021

criminal street gangs, Gomez said, “Fuck slobs” and “Fuck crabs.” Hayes, who was
wearing red clothing generally associated with Blood gangs, and Turner, who was
wearing blue clothing generally associated with Crip gangs, told Gomez they were gay
and did not “gangbang.”1 According to Turner, telling gang members they were gay
usually diffused a potential gang confrontation and allowed him and his friends to leave
without incident. When Turner’s statement did not dissuade Gomez from wanting to
fight, Hayes told Gomez he had a friend in the 18th Street Gang. Gomez, however,
continued to threaten the three of them.
At this point a white mini-van drove up to the six men as they faced each other on
the street. Two men came out of the mini-van, and the driver handed out knives to
Gomez and his companions. Gomez got a knife, waved or “flashed” it at Hayes, and
made slicing motions in an attempt to put the knife in Hayes’ chest. Gomez also swung
his knife at Turner. Hayes, who was much taller than Gomez, stood his ground for a
moment to protect Turner and Garnett, who were smaller men. Now that Gomez had a
knife, and Hayes, Turner, and Garnett were surrounded and outnumbered five to three, a
“red flag went off” in Hayes’ mind and he knew “nothing good could come from the
situation [they] were in.” Hayes said he was not afraid of Gomez, but he was afraid of
what Gomez could do with a knife. Turner yelled “Run!” and the three friends started
running down the middle of Pico Boulevard, followed by Gomez and his associates.
Hayes, Turner, and Garnett ran to a house with a locked gate, jumped over the gate, hid
behind some cars, and called the police.

1

Hayes testified that he was wearing red clothing that night “because I’m
comfortable with what I wear and I like red and I believe I should be able to wear
whatever I want.” Hayes said that Turner was dressed in “all blue.” As for Garnett,
Hayes testified, “I don’t remember how he was dressed, but the way he dressed is more,
how do I say it, white boyish . . . . He likes to wear colored shirts and plaid shirts.”
Turner testified, “I don’t wear red. I don’t wear blue. I don’t wear . . . large clothes. I
don’t hang out with gang members, so I do everything to prevent that.”

3
000022

Several months later, Hayes identified Gomez in a photographic line up and wrote,
“This guy in this picture chased [Garnett] first and put him up against the gate. He also
kicked [Turner]. Then he was handed a knife to stab me.” Turner also identified Gomez
and wrote, “He ran up, kicked me, and he pulled out a knife.” At trial, the People
presented expert testimony that Gomez’s attack on Hayes, Turner, and Garnett was for
the benefit of and in association with the 18th Street criminal street gang.

B.

The Kidnapping and Carjacking

A warrant issued for Gomez’s arrest. Law enforcement conducted surveillance
and found him on June 7, 2012, riding as a passenger in the back seat of a green and tan
Toyota near the Santa Monica Freeway, Interstate 10. When the officers in one of the
police cars following the Toyota activated the exterior overhead lights to initiate a stop,
the Toyota drove to a dead-end street, made a U-turn, and stopped. Gomez, wearing a
black T-shirt, black shorts, and black socks without shoes, jumped out of the car and ran
into a tunnel under the freeway. Officers gave chase, yelled at Gomez to stop running,
but lost him in some bushes.
Gomez made it onto the freeway, where Miriam Sheriff was driving in heavy
traffic, about to exit at La Brea Avenue. Her front windows were down, and she could
hear police helicopters above her. Suddenly, Gomez jumped into her car through the
passenger window, landed on the floor, pushed her foot on the accelerator, and told her to
“go.” Sheriff told Gomez she had a husband and daughter, and begged him not to hurt
her. Gomez said he would not hurt her. Gomez stayed on the floor for a while, finally
climbed up on the seat, and, after borrowing her phone, told Sheriff to exit at Fairfax
Avenue and drive him to a fast food restaurant on Vermont Avenue and Martin Luther
King Boulevard.
Sheriff, who has a background in social work and described herself as
“empathetic,” testified at trial that during the ride she began to talk to Gomez about his
life and his problems. She testified that Gomez did not threaten her and was not
aggressive towards her, and that once Gomez said he was not going to hurt her, she did
4
000023

not feel threatened by or afraid of him. When they arrived at the restaurant, Gomez
obtained $30 from a friend, gave it to Sheriff for gas, and thanked her.
Sheriff did not call the police. She was surprised when the police found her and
came to her father’s home to interview her. Police officers testified that Sheriff was
afraid of Gomez and had pleaded with him not to hurt her because she had a family.
Sheriff told the officers that she did not call the police because Gomez told her not to and
she feared that Gomez knew her license plate and would be able to harm her if she
contacted the police. One of the officers testified that Sheriff was nervous, frightened,
worried, and shaken up during his interview with her. Sheriff identified Gomez in a
photographic line up.

C.

The Charges, Verdict, and Sentence

The People charged Gomez with three counts of assault with a deadly weapon, in
violation of Penal Code section 245, subdivision (a)(1),2 for Gomez’s attacks on Garnett,
Turner, and Hayes. The People also charged Gomez with kidnapping, in violation of
section 207, subdivision (a), carjacking, in violation of section 215, subdivision (a), and
kidnapping during the commission of a carjacking, in violation of section 209.5,
subdivision (a), for his encounter with Sheriff. The People alleged in connection with the
assaults against Garnett, Turner, and Hayes that Gomez committed the assaults for the
benefit of, at the direction of, and in association with a criminal street gang with the
intent to promote, further, and assist criminal conduct by gang members, pursuant to
section 186.22, subdivision (b)(1). The information also included four counts of robbery,
three of which the court dismissed before trial because the People announced they were
unable to proceed. The People also alleged that Gomez was released from custody on
bail or recognizance, within the meaning of section 12022.1, when he committed the
kidnapping and carjacking crimes.

2

All statutory references are to the Penal Code.

5
000024

The jury found Gomez guilty on the three counts of assault with a deadly weapon
against Garnett, Turner, and Hayes, and found true the criminal street gang allegations.
The jury also found Gomez guilty of kidnapping, carjacking, and kidnapping during the
commission of a carjacking, with respect to Sheriff. The jury acquitted Gomez of the
remaining count of robbery.
The trial court sentenced Gomez to a total of 16 years 4 months, plus life in prison
with the possibility of parole on the conviction for kidnapping during the commission of
a carjacking. Gomez appealed.

DISCUSSION

A.

The Right to Self-Representation and the Standard of Review

A defendant has the right under the Sixth and Fourteenth Amendments of the
United States Constitution to waive his or her right to counsel and to represent himself or
herself if he or she is competent to do so and invokes that constitutional right voluntarily,
knowingly, and intelligently. (Faretta v. California (1975) 422 U.S. 806, 807 (Faretta);
People v. Lynch (2010) 50 Cal.4th 693, 721-722, overruled on other grounds in People v.
McKinnon (2011) 52 Cal.4th 610, 637; see People v. Stanley (2006) 39 Cal.4th 913, 931932.) The defendant must unequivocally assert the right of self-representation within a
reasonable time prior to the start of trial. (People v. Windham (1977) 19 Cal.3d 121, 127128 (Windham).) If the motion for self-representation is timely, unequivocal, knowing,
and intelligent, the court must grant it. (People v. Williams (2013) 58 Cal.4th 197, 252253; People v. Lynch, supra, 50 Cal.4th at p. 721; People v. Jackson (2009) 45 Cal.4th
662, 689.)
While a timely, unequivocal motion for self-representation invokes “the
nondiscretionary right to self-representation” under Faretta, an untimely motion for selfrepresentation does not. (People v. Lawrence (2009) 46 Cal.4th 186, 191-192; see
People v. Lynch, supra, 50 Cal.4th at pp. 721, 722 [“[a] trial court must grant a
defendant’s request for self-representation” if it is timely, but has discretion to deny the
6
000025

request “if untimely”]; People v. Bradford (1997) 15 Cal.4th 1229, 1365 [if the motion is
untimely, “self-representation no longer is a matter of right but is subject to the trial
court’s discretion”].) Finally, although an erroneous denial of a timely motion for selfrepresentation is reversible per se (People v. Williams, supra, 58 Cal.4th at p. 253; People
v. Butler (2009) 47 Cal.4th 814, 824), an erroneous denial of an untimely motion for selfrepresentation is reviewed for harmless error under People v. Watson (1956) 46 Cal.2d
818, 836. (See People v. Rogers (1995) 37 Cal.App.4th 1053, 1058; People v. Nicholson
(1994) 24 Cal.App.4th 584, 594-595; People v. Rivers (1993) 20 Cal.App.4th 1040,
1050.)

B.

Gomez’s Motion for Self-Representation Was Untimely

In assessing whether a motion for self-representation is timely, the court considers
the totality of the circumstances. (People v. Lynch, supra, 50 Cal.4th at p. 725.) “Thus, a
trial court properly considers not only the time between the motion and the scheduled
trial date, but also such factors as whether trial counsel is ready to proceed to trial, the
number of witnesses and the reluctance or availability of crucial trial witnesses, the
complexity of the case, any ongoing pretrial proceedings, and whether the defendant had
earlier opportunities to assert his right of self-representation.” (Id. at p. 726.) The court
may also consider whether the defendant will need a continuance. (See Windham, supra,
19 Cal.3d at p. 128, fn. 5.) “Moreover, a trial court rarely should grant such a motion on
the day set for trial. [The California] Supreme Court has ‘held on numerous occasions
that Faretta motions made on the eve of trial are untimely.’ [Citation.] A motion made
that close to the day set for trial is ‘extreme’ [citation] and now is disfavored.” (People v.
Powell (2011) 194 Cal.App.4th 1268, 1277.)
The trial court correctly determined that Gomez’s motion to represent himself was
untimely because he made it on the day of trial, just as the trial was about to begin and
the prospective jurors were about to enter the courtroom. As the California Supreme
Court stated in Windham, “a defendant should not be permitted to wait until the day
preceding trial before he moves to represent himself . . . without some showing of
7
000026

reasonable cause for the lateness of the request.” (Windham, supra, 19 Cal.3d at p. 128,
fn. 5; see People v. Valdez (2004) 32 Cal.4th 73, 102 [motion for self-representation
made “moments before jury selection was set to begin” was untimely]; People v.
Frierson (1991) 53 Cal.3d 730, 742 [motion for self-representation made “on the eve of
trial over 10 months after counsel had been appointed” was untimely]; People v. Moore
(1988) 47 Cal.3d 63, 79 [“we specifically stated in Windham, that ‘a defendant should not
be permitted to wait until the day preceding trial before he moves to represent himself
and requests a continuance in order to prepare for trial without some showing of
reasonable cause for the lateness of the request’”]; People v. Howze (2001) 85
Cal.App.4th 1380, 1397 [motion for self-representation made “on the eve of trial” or
“within three calendar days of the commencement of trial” was untimely]; People v.
Rudd (1998) 63 Cal.App.4th 620, 626 [although there is no bright line rule, “[w]hen
California Supreme Court authority has been applied, motions for self-representation
made on the day preceding or on the trial date have been considered untimely”].) Other
circumstances supporting the trial court’s finding that Gomez’s request was untimely
included that Gomez’s attorney was ready to proceed to trial, as evidenced by the fact
that he did so a few moments later, and the fact that Gomez had multiple pretrial
opportunities (at least 10 pretrial hearings at which he was present) to assert his right of
self-representation. (People v. Lynch, supra, 50 Cal.4th at p. 726.)

C.

Any Error in Denying Gomez’s Untimely Motion for Self-Representation
Was Harmless

As Gomez correctly contends, where, as here, the court determines the defendant’s
request for self-representation is untimely, the trial court must inquire into the reasons for
the request and exercise its discretion in light of several factors identified in Windham.
Those factors include “the quality of counsel’s representation of the defendant, the
defendant’s prior proclivity to substitute counsel, the reasons for the request, the length
and stage of the proceedings, and the disruption or delay which might reasonably be
expected to follow the granting of such a motion.” (Windham, supra, 19 Cal.3d at p. 128;
8
000027

accord, People v. Lynch, supra, 50 Cal.4th at p. 722, fn. 10.) Although the court must
make the Windham inquiry, the court’s failure to do so does not necessarily mean the
court abused its discretion. (See Windham, supra, 19 Cal.3d at p. 129, fn. 6; People v.
Bradford (2010) 187 Cal.App.4th 1345, 1354-1355.) A reviewing court will affirm an
exercise of discretion in denying an untimely motion for self-representation if there is
substantial evidence in the record supporting the inference that the trial court considered
the Windham factors, even if the trial court failed to make the inquiry Windham requires.
(See People v. Dent (2003) 30 Cal.4th 213, 218; People v. Marshall (1996) 13 Cal.4th
799, 827-828; People v. Scott (2001) 91 Cal.App.4th 1197, 1206.)
The transcript of the hearing on Gomez’s request to represent himself is as
follows:

“The Court: [The] matter has been transferred here for trial. Are there any 402’s
we need to deal with before we bring a jury panel down?
“[Counsel for Gomez]: Your Honor, before we do that, my client has indicated to
me that he wishes to proceed pro per.
“The Court: Well, the matter is here for trial. Is he ready to continue with the trial
today?
“[Mr. Gomez]: No. No, Your Honor.
“The Court: I mean, today is eight of ten, sent out for trial. I take it it’s eight of
ten.
“[Counsel for Gomez]: Eight of ten, Your Honor.
“The Court: Eight of ten, sent out for trial. This case has been going on since
April of 2012, so it’s a year and a half. Are you ready to start picking a jury on your
own?
“[Mr. Gomez]: Umm, I don’t think I’m fully prepared for that.
“The Court: Well, then you waited too long to go pro per. The request to go pro
per is denied.”

9
000028

The court did not make the required Windham inquiry into the reasons for the
request or ask questions to obtain information that would allow the court to exercise its
discretion in light of the Windham factors. The court asked Gomez if he was ready to
proceed with the trial at the time and pick a jury, and Gomez answered both questions in
the negative. But the court did not ask Gomez whether he would have been ready to pick
a jury and start the trial the next day (“nine of 10”) or the day after that (“10 of 10”). The
court did not ask Gomez any questions about his attorney’s representation, any prior
requests to substitute counsel or represent himself, how soon Gomez could be ready to
proceed with the trial if he represented himself, or anything else about the circumstances
of his request. Nor, other than noting how long the case had been pending, did the court
make any findings or comments on the Windham factors, such as the quality of the
representation by Gomez’s attorney, prior requests by Gomez to represent himself, or any
disruption or delay that would result from granting Gomez’s motion.
As noted, even in the absence of a proper inquiry into and an explicit discussion of
the Windham factors, a reviewing court will not find an abuse of discretion if the record
contains substantial evidence to support an inference that the trial court considered the
Windham factors. Here, however, there is no substantial evidence that the trial court
considered the Windham factors, and the People do not cite to any. There is no evidence
that counsel for Gomez’s representation was deficient or inconsistent with Gomez’s
wishes and instructions in any way, that Gomez’s reasons for requesting to represent
himself were invalid or designed to cause delay, or that Gomez had any prior proclivity to
substitute counsel. It would be a stretch on this record to conclude, despite the court’s
failure to inquire into or make any findings on the Windham factors, that there is
substantial evidence from which we can infer the court did consider those factors.
Nevertheless, any error in the trial court’s denial of Gomez’s untimely motion for
self-representation was harmless because it is not reasonably probable that Gomez would
have achieved a more favorable result had he represented himself. (See People v. Rogers,
supra, 37 Cal.App.4th at p. 1058; People v. Nicholson, supra, 24 Cal.App.4th at pp. 594595.) As a practical matter, self-represented defendants are rarely able to obtain a better
10
000029

outcome than an experienced attorney can obtain. (See Faretta, supra, 422 U.S. at p. 834
[“[i]t is undeniable that in most criminal prosecutions defendants could better defend with
counsel’s guidance than by their own unskilled efforts”]; People v. Rivers, supra, 20
Cal.App.4th at p. 1051 [“[i]t is candidly recognized that a defendant who represents
himself virtually never improves his situation or achieves a better result than would
trained counsel”].) Gomez does not argue that his attorney was ineffective or deficient,
or suggest what he would have done differently than his attorney did in order to obtain a
more favorable result. Indeed, Gomez’s attorney was able to obtain an acquittal of the
one robbery charge that remained after the People had dismissed the other three.
Moreover, although Gomez did not represent himself at trial, he did testify and was able
to give his version of the events and tell his side of the story to the jury in his words. It is
hard to see how he could have made a better presentation to the jury by representing
himself while he was testifying.
Finally, the evidence against Gomez relating to the assaults on Hayes, Turner, and
Garnett, and the kidnapping and carjacking of Sheriff, was compelling and virtually
undisputed. The testimony of Hayes and Turner was detailed and uncontradicted. In his
testimony, Gomez did not dispute any of the material facts of the attacks with the knife,
but merely explained he was “high that day” and was unsure about how the specific
events of that evening unfolded. Similarly, there was little conflict or ambiguity in the
evidence of Gomez’s flight from police and kidnapping and carjacking of Sheriff.
Gomez testified that he ran onto the freeway after he had been chased because it was
“just what I do,” that he dove into Sheriff’s car and put his hand on her leg and told her to
“go,” and that Sheriff asked him not to hurt her because she had a husband and a daughter.
Although Gomez testified that his unsolicited and unwanted freeway encounter with an
unsuspecting driver, who happened to have a background in social work and enjoyed
talking to strangers, somehow blossomed into a voluntary ride for a newfound friend, the
investigating officers who interviewed Sheriff explained that she was concerned for her
physical safety because Gomez could use her license plate number to find her. The jury

11
000030

did not believe Gomez’s version of these events, and it is not reasonably probable they
would have if Gomez had represented himself at trial. 3

D.

Gomez’s Convictions for Kidnapping and for Carjacking, Both Lesser
Included Offenses of Kidnapping During the Commission of a Carjacking,
Must Be Reversed

The jury convicted Gomez of kidnapping during the commission of a carjacking in
violation of section 209.5, subdivision (a), and the trial court sentenced him to life in
prison with the possibility of parole. The jury also convicted Gomez of kidnapping in
violation of section 207, subdivision (a), and carjacking, in violation of section 215,
subdivision (a), and the trial court sentenced Gomez to one year eight months on each
count and stayed both sentences under section 654.
Gomez argues, the People agree, and we conclude this was error. As the People
concede, kidnapping and carjacking are lesser included offenses of kidnapping during the
commission of a carjacking. (See People v. Dowdell (2014) 227 Cal.App.4th 1388, 1416
[“[i]t is well settled that carjacking is a necessarily included offense of kidnapping during
a carjacking”]; People v. Ortiz (2012) 208 Cal.App.4th 1354, 1368 [the elements of
kidnapping “appear to be included within the elements of kidnapping during a

3

Gomez cites language from the court’s opinion in People v. Nicholson, supra, 24
Cal.App.4th 584 stating “it might have been to [the defendants’] advantage to conduct
voir dire and to present opening statements and closing arguments, thereby giving the
jury an opportunity to hear from them (without the inconvenience of cross-examination).”
(Id. at p. 595.) Perhaps. But the standard under People v. Watson, supra, 46 Cal.2d 818
is not whether it might have been advantageous, but whether it is reasonably probable
that, had Gomez conducted voir dire and presented his opening statement and closing
argument, he would have obtained a better result. And, as the court in People v. Percelle
(2005) 126 Cal.App.4th 164 explained in distinguishing Nicholson, even if Gomez had
personally participated in voir dire, opening statement, and closing argument, “the jury
was still bound to decide the case on the evidence, the greater part of which was
undisputed.” (People v. Percelle, at p. 177.)

12
000031

carjacking”]; see also People v. Medina (2007) 41 Cal.4th 685, 701 [attempted
kidnapping is a lesser included offense of kidnapping during a carjacking].) Therefore,
Gomez’s convictions for the lesser included crimes of kidnapping and carjacking must be
reversed. (See People v. Pearson (1986) 42 Cal.3d 351, 355 [“multiple convictions may
not be based on necessarily included offenses”]; People v. Dowdell, supra, 227
Cal.App.4th at p. 1416 [“[w]hen a defendant is convicted of a greater and a lesser
included offense, reversal of the conviction for the lesser included offense is required”].)

DISPOSITION

The convictions for kidnapping and for carjacking are reversed, and the judgment
is otherwise affirmed.

SEGAL, J.

We concur:

PERLUSS, P. J.

ZELON, J.

13
000032

PROOF OF SERVICE

STATE OF CALIFORNIA
COUNTY OF MONTEREY

)
) SS.
)

I am employed in the County of Monterey, State of California. I am over the
age of 18 and not a party to the within action. My business address is 71 Via Paraiso, Monterey,
California 93940.
On September 1, 2020, I served the within entitled documents described as
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF
CERTIORARI and APPENDIX TO PETITION FOR WRIT OF CERTIORARI on the interested
parties in said action through the electronic filing system of the United States Supreme Court and
placing a true copy thereof in the United States mail enclosed in a sealed envelope with postage
prepaid, addressed as follows:

David E. Madeo
Deputy Attorney General
Office of the Attorney General
300 South Spring Street, Suite 1702
Los Angeles, California 90013

I declare under penalty of perjury under the laws of the State of California that
the foregoing is true and correct.
Executed on September 1, 2020, at Monterey, California.
By: /s/ Jan B. Norman
JAN B. NORMAN

